WAIVER

SUPREME COURT OF THE UNITED STATES

No. io0-7825 |

\Carlon D. McGinn | Ikansas

(Petitioner) Vv. (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© lam filing this waiver on behalf of all respondents.

Oo Tonly represent some respondents. I am filing this waiver on behalf of the following respondent(s):

 

Please check the appropriate box:

Iam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

oO Iam not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bay,member. (Filing Instructions: Mail the original signed form to: Supreme Court,

 

   

 

     
   

 

Signature: | _ ee
Date: (5/21/24 —
(Type or print) Name [Brant M. Laue
© Mrs. O Miss
Firm
Address
City & State (Topeka, Kansas Zip less 2
Phone (785) 296-2215 | Email prant.laue@ag.ks.gov
A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.
Carion D. McGinn - - oO
ce:

 
